                               INSPECTOR GENERAL
                                  SEMIANNUAL REPORT TO CONGRESS
                                                           DOE/IG-0039




                                          U.S. Department of Energy

                                          Office of Inspector General




U.S. Department of Energy           April 1, 2004 - September 30, 2004
 Office of Inspector General
                             SEMIANNUAL REPORT TO CONGRESS




                           Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
    Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
    Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
    Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
    National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
    Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
    Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14


Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . .15
    Administrative Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
    External Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18
    Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
    Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
    Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
    Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
    Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
    Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
    Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
    Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
    Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31




                                                                  i
U . S . D E PA RT M E N T O F E N E R G Y                                       OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




                   Inspector General’s Message


I
   am pleased to provide the Office of Inspector General’s (OIG) Semiannual Report to
   Congress for the reporting period April 1 to September 30, 2004. This report, issued in
   accordance with the provisions of the Inspector General Act of 1978, as amended,
highlights our accomplishments in identifying areas of Department of Energy (Department)
operations most vulnerable to waste, fraud, and mismanagement. Through our work, we strive
                                           to help improve the Department’s performance,
                                           promote economy and efficiency in its programs,
                                           and return hard dollars to the Federal Government.

                                             For this reporting period, I have chosen to highlight
                                             two subjects which I believe underscore the
                                             important work of the OIG. First, during
                                             Fiscal Year (FY) 2004 the OIG completed a number
                                             of major criminal and civil investigations that
                                             resulted in significant recoveries from companies
                                             doing business with the Department. The three
                                             cases I am highlighting here involved sophisticated
schemes to defraud the Government and as a result, required lengthy, labor-intensive
investigative efforts. In one case, a contractor agreed to reimburse the Government over
$3.8 million to settle a civil fraud case under the False Claims Act. This multi-year
investigation focused on questionable allocations and transfers between overhead accounts
and direct project accounts. The second investigation determined that a Department
contractor submitted false purchase orders for payment, mischarged time to the Department,
and billed the Department for personal expenses. This probe spanned a 36-month period
and led to a civil settlement of $4.5 million between the company and the United States
Government. The third investigation found that a Department subcontractor supplied
material that did not meet contractual specifications. As a result of this 8-year investigation,
a court ordered the payment of approximately
$4.2 million in damages and penalties (in addition
to earlier criminal convictions and debarments).
Investigations such as these serve to emphasize the
importance of effective Federal vigilance in
managing the work and billings of the Department’s
contractor workforce. These and similar cases
represent, in part, the basis used by the OIG to
identify contract administration as a significant
management challenge faced by the Department of
Energy in 2004.



                                                1
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




                                     The second area I would like to highlight is the quality of
                                     the work performed by the employees of the OIG.
                                     Recognition comes in many forms, one of which is
                                     recognition by our peers. In 2004, we were the proud
                                     recipients of eight “Award for Excellence” honors from the
                                     President’s Council on Integrity and Efficiency. The
                                     Office of Audit Services received awards for its reviews and
                                     efforts in reducing the threat of proliferation of highly
                                     enriched uranium in foreign countries; protecting sensitive
                                     technologies; strengthening the internal audit function at
                                     major contractor facilities; and, administering the annual
                                     audit of the Department’s financial statements. The Office
                                     of Inspections and Special Inquiries received awards for its
reviews of the reporting of security incidents at a nuclear weapons laboratory and
improprieties in performance testing of security
guards. The Office of Investigations received an
award for its efforts in a major product
substitution case. The Office of Inspections and
Special Inquiries and the Office of Audit Services
also received a joint award recognizing their
collective efforts that resulted in the Department
taking actions to improve its protective force
security program. These awards are just one
measure of the outstanding work performed by the
employees of the OIG which contributes to the
core mission of the Department of Energy. I want to express my appreciation for the
accomplishments of all OIG employees and commend them for their continued
professionalism and dedication.

                                          The OIG remains committed to being an
                                          instrument for positive change in the Department.
                                          To this end, we actively work to identify ways that
                                          management can better accomplish the
                                          Department’s mission and goals. I wish to thank
                                          the Department for its cooperation and strong
                                          support of our efforts.

                                        As you read this year’s Semiannual Report, please
                                        note that we again streamlined the reporting
process by providing shortened report summaries. Public reports are available in full on
our website at www.ig.doe.gov.



                                                        Gregory H. Friedman
                                                        Inspector General


                                               2
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Management Challenges

H
          ighlights of our work during the current reporting period, which are set forth in
          the following sections of this report, are organized by management challenge area.
          As required by the Reports Consolidation Act of 2000, the OIG annually identifies
the most significant management and performance challenges facing the Department. This
year, the OIG determined that the most serious challenges facing the Department are:

           Internal Control Challenges                 Mission-Related Challenges
            Contract Administration                      Environmental Cleanup
            Information Technology                          National Security
              Project Management                          Stockpile Stewardship




Contract Administration

Discrepancies Found in the Department’s Occupational Injury
and Illness Reporting
An OIG audit found problems with the Computerized Accident/Incident Reporting System
(CAIRS) data accuracy for a number of the Department’s contractors. Our testing disclosed
that CAIRS did not always accurately reflect the number of days away from work, days of
restricted work activity, or lost workday cases. In addition to the 10 contractors we reviewed,
we also noted a contractor that was not required to report occupational injuries and illnesses
to the Department. We attributed these issues to weaknesses in the Department’s quality
assurance process over injury and illness reporting. (IG-0648)


Property Disposals at the Yucca Mountain Project
An OIG audit disclosed that property and inventory disposals at the Yucca Mountain
Project were not performed in the most cost-beneficial manner. Specifically, by not
following the Department’s normal disposition procedures, the Office of Civilian
Radioactive Waste Management:
    ■ Gave property that was still usable and had a potential residual value to the

      disposal contractor;
    ■ Inappropriately gave property belonging to another Department organization to the

      disposal contractor; and,


                                               3
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




   ■   Sold a drilling rig even though another Department site needed the property to satisfy
       a mission requirement.

We made several recommendations designed to ensure that future property deemed excess at
the Yucca Mountain site is disposed of in a manner that maximizes benefit to the
Government and other stakeholders. (IG-0664)


Improvements in Los Alamos National Laboratory’s
Purchase Card Program
An OIG follow-up review found that the Los Alamos National Laboratory (LANL) had
significantly improved the management of its purchase card program. The Laboratory had
implemented numerous corrective actions in response to recommendations made in
previous reviews. While the progress was noteworthy, we determined that clarification of
restrictions on purchasing certain items, usage of automated transaction review techniques,
and strengthened periodic reviews could further reduce the risk associated with the purchase
card program. (IG-0644)


Department Management and Operating Contractor Agrees to
Qui Tam Settlement for False Claims
An OIG investigation resulted in a $1.175 million civil settlement agreement between the
Government and the management and operating contractor at the Thomas Jefferson
National Accelerator Facility. The investigation determined that the contractor failed to
adequately support or document its claims for reimbursement of central office expenses for
FYs 2000-2002 and sought unallowable expenses under the Department contract. This case
began as a qui tam action under the False Claims Act. Pursuant to the agreement, the
contractor was also ordered to pay the Relator $85,000 to resolve an employment
termination claim as well as $40,000 for the Relator’s attorneys’ fees. (I02HQ022)


Department Contractor                                         Did you know?
Agrees to Civil Settlement                        The False Claims Act (Act) prohibits any
for False Claim Submissions                       person from “knowingly” presenting a
                                                  “false or fraudulent claim for payment
An OIG investigation determined that a            or approval” to the Federal Government.
Department contractor submitted false             The Act authorizes individual citizens to
                                                  bring private suits, referred to as qui
purchase orders for payment, mischarged
                                                  tam actions, to enforce the Act on behalf
time to a Department contract, and billed
                                                  of the Government.
the Department for personal expenses. The




                                              4
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




investigation further determined that the contractor failed to pay its $500,000 cost share on
a Small Business Innovative Research grant. The contractor and its owners entered into a
$4.5 million civil settlement agreement with the United States (U.S.) Attorney’s Office for
the Eastern District of Pennsylvania. Pursuant to the agreement, $1.6 million will be
returned to the Department. The agreement followed an OIG investigation of a qui tam
complaint filed under the False Claims Act. (I01HQ008)


Subcontract Administration Weaknesses Found at
National Laboratories
Based on the importance of subcontracting to the Department’s mission, the OIG conducted
an audit to determine whether the National Nuclear Security Administration’s (NNSA)
National Laboratories were effectively administering subcontracts. The review found that
during FYs 2001 and 2002, the Lawrence Livermore, Los Alamos, and Sandia National
Laboratories did not always perform needed subcontract audits, close completed subcontracts
in a timely manner, or resolve questioned costs. As a result, NNSA did not have assurance
that all reimbursed costs were allowable, questioned costs were recovered, and funds from
completed subcontracts were promptly recovered. (OAS-M-04-06)


Tuition Reimbursement for Courses at Non-Accredited
Educational Institutions
An OIG audit found that certain Department facilities management contractors reimbursed
their employees for the cost of degrees and course work at unaccredited institutions.
Specifically, 4 prime contractors reimbursed 10 employees for expenses totaling about
$34,000 for course work from unaccredited institutions during FYs 2002 and 2003.
(OAS-M-04-07)


Department Subcontractor Agrees to Qui Tam Civil Settlement
for False Certifications
An OIG investigation determined that a Department subcontractor submitted false pricing
certifications for software/consulting services to five different Department prime contractors.
As a result, the Department paid excessive fees to the subcontractor. As part of a civil
settlement agreement, the subcontractor agreed to pay the Government $500,000, of which
$248,000 was returned to the Department. (I01HQ017)




                                               5
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Environmental Cleanup
                                            Idaho National Engineering and
                                            Environmental Laboratory Cleanup
                                            Projects Face Significant Challenges
                                                An OIG audit found that the Department faced
                                                significant challenges in completing its major
                                                projects in accordance with its original
Personnel secure shipment of spent nuclear fuel
                                                expectations. For example, the audit disclosed
                                                that as of its originally scheduled start date of
March 31, 2003, the Advanced Mixed Waste Treatment Project facility was unable to
characterize, treat, or certify waste; and full operation was not anticipated until July 2004.
We also noted that construction of the dry storage facility for Spent Nuclear Fuel was not
anticipated to begin until well after its scheduled July 1, 2003, completion date – in fact, it
is currently estimated to be sometime in 2005 or 2006. The Department also did not meet
its original completion goal for the Three Mile Island Project and later reduced the scope of
the project to compensate for schedule slippages. (IG-0649)


                                            Ineffective Groundwater Remediation
                                            Activities at Hanford
                                                 An OIG audit disclosed that the Department had
                                                 not made significant progress in its efforts to
                                                 remediate Hanford’s groundwater and that pump-
                                                 and-treat systems installed for this purpose had
                                                 been largely ineffective. In addition, the Richland
                                                 Operations Office plans to spend more than
Groundwater testing at the Hanford Reach area of $230 million to install surface barriers as a final
Columbia River, WA
                                                 remediation action for groundwater in certain areas
of the site. However, this action may be inappropriate because final cleanup requirements
have yet to be defined for groundwater at Hanford. (IG-0655)


Licensee Inappropriately Claimed Costs at the West Chicago
Thorium Processing Facility
An OIG audit of a licensee’s 2002 claimed costs disclosed that the company had
inappropriately claimed about $7.3 million in costs that had not actually been paid in
the claim year and overhead expenses that were not allowable or allocable. The review
also questioned $14 million in overhead costs previously approved by the Department
from the 1994 through 2001 claims. (OAS-M-04-08)


                                                 6
OFFICE OF INSPECTOR GENERAL                                 U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Subcontractor Employee Pleads Guilty in Connection With the
Transportation of Hazardous Waste
As previously reported, a joint OIG investigation with the East Tennessee Environmental
Crimes Task Force determined that a subcontractor improperly transported hazardous waste
without a manifest. As a result of the investigation, the subcontractor pleaded guilty to a
felony violation of Title 42 United States Code (U.S.C.) Section 6928(d)(2)(A) (Storing
Hazardous Waste Without a Permit) and was ordered to pay $35,400 in fines and penalties.
The subcontractor previously paid a $100,000 civil penalty assessed by the Environmental
Protection Agency in November 2000. In addition, the investigation previously resulted in
payment by the subcontractor’s parent corporation of approximately $14.5 million in
documented remediation and disposal costs.

During this reporting period, a former quality assurance employee of the subcontractor
pleaded guilty to a violation of Title 42 U.S.C. Section 6928(d)(5) (Transportation of
Hazardous Waste Without a Manifest) as an accessory after the fact, pursuant to Title 18
U.S.C. Section 3 and was sentenced to six months probation, $1,000 fine and a $25 special
assessment fee. (I99OR003)


Corporation Pleads Guilty to Violations of the Refuse Act
A joint OIG investigation that included the East Tennessee Environmental Crimes Task
Force determined that a Department contractor illegally discharged 1,275 barrels of diesel
fuel into the Tennessee River. The contractor pleaded guilty to violation of the Deposit of
Refuse in Navigable Waters Act, Title 33 U.S.C. Section 407. As a result of the plea, the
contractor was ordered to pay $350,000 in restitution, a $50,000 fine, and a special
assessment fee of $125. (I02OR009)




Information Technology
New Financial System Faces Challenges
An OIG interim audit report contained observations on the implementation of the Standard
Accounting and Reporting System (STARS) financial system. STARS will replace the
Department’s aging legacy core financial systems. Our review disclosed a number of
challenges to its successful implementation, including:
    ■ Resource issues resulting from implementing STARS and reorganizing a significant

      portion of the accounting function at the same time;
    ■ Incomplete system interface and data crosswalk testing;

    ■ Inability to permit budget recasts and process multi-fund accounts receivables;




                                              7
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




    ■ Incomplete analysis and resolution of the user acceptance testing errors; and,
    ■ Incomplete identification of users to be trained.



These issues increase the risk that the Department may not be prepared to launch a fully
capable system on schedule. (OAS-L-04-19)


Weaknesses in Information System Development Activities at
Selected Management Contractors
An OIG audit determined that selected Department contractors were not always on
track to deliver effective information systems on time or at expected cost. We found
indications of problems with systems being developed at all five of the major contractors
reviewed, including:
    ■ LANL’s Enterprise Project development did not include critical mission elements

      and has been projected to cost about $150 million, $80 million more than
      initial estimates;
    ■ Princeton Plasma Physics Laboratory’s over-customization of its financial system

      contributed to schedule overruns of 19 months and rendered the system difficult to
      maintain and upgrade; and,
    ■ Sandia National Laboratories expended about $2.7 million on development of a

      stockpile reliability application, yet it is still uncertain as to the system’s expected
      total cost.

The Department’s contractors developed these systems without undertaking generally
accepted systems development or project management practices and, in many cases, did not
adequately justify the mission need or establish expected scope, cost, or schedule for such
efforts. (IG-0647)


Additional Action Needed in Unclassified Cyber Security Program
Our annual evaluation determined that the Department had taken steps to strengthen its
unclassified cyber security program and implemented countermeasures to reduce network
vulnerabilities. While the actions are commendable, problems continue to exist in the
program. Specifically, we noted that additional action was required to address problems
with certification and accreditation, contingency planning, and various cyber security
controls. (IG-0662)




                                                8
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Improvements Needed in the Department’s Personnel Security and
Access Control Information Systems
An OIG audit concluded that the Department’s information systems modernization
initiatives were not designed in a manner that would adequately address long-standing
economy and efficiency issues related to its personnel security and physical access systems.
Specifically, ongoing development efforts or management initiatives will not:
     ■ Significantly improve the ability of its corporate personnel security system to track

       visitor site access, reconcile with contractor clearance tracking systems, enable field
       sites to generate customized reports, or increase user system access;
     ■ Eliminate costly development and maintenance of numerous separate, site-level

       personnel security information systems; and,
     ■ Reduce overlapping or redundant physical access control systems that do not

       communicate with each other, including those at some facilities located in close
       proximity to one another. (IG-0651)


Management of the Federal Energy Regulatory Commission’s
Information Technology Program
The OIG conducted an audit to determine whether the Commission had efficiently and
effectively managed its systems-related investments. While our review indicated that the
Commission had initiated action to improve the management of its information technology
program, we concluded that this effort could have been enhanced through better project
planning and management. The effectiveness of the Commission’s system development
activities could have been improved by developing an enterprise architecture, implementing
a capital planning and investment control process, and thoroughly applying project
management techniques. (IG-0652)


Control and Accountability of Emergency Communication
Network Equipment
Although positive steps have been taken to account for Emergency Communication
Network computer equipment, an OIG inspection identified internal control weaknesses
that could undermine the Department’s ability to properly account for and inventory the
computer equipment. We also identified accountability, inventory control, and loan
processing as areas where safeguards should be strengthened as new computers are added to
the system. (IG-0663)




                                                9
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                         SEMIANNUAL REPORT TO CONGRESS




Hacker Guilty of Unauthorized Access to Government Computers
A joint investigation with the Federal Bureau of Investigation (FBI) and other investigative
agencies established that two individuals gained unauthorized access to multiple
Government-owned computers, including two web servers at the Department’s Sandia
National Laboratory, Albuquerque, New Mexico. The investigation determined that
the hackers modified two webpages on Sandia’s computer network. The network was
not classified.

The U.S. Attorney’s Office for the District of Columbia accepted the case for prosecution.
One of the subjects pleaded to one felony count of violating Title 18 U.S.C. Section 1030
(Fraud and Related Activity in Connection with Computers). Sentencing is forthcoming.
The other subject is pending prosecution. (I02TC020)




National Security
                                                Inadequate Protective Force Response
                                                to a Security Incident at Sandia
                                                National Laboratory, California
                                                        An OIG inspection found that pop-up vehicle
                                                        barriers installed as part of a $4.9 million security
                                                        upgrade were not employed in response to a
                                                        vehicle intrusion incident at the Sandia National
                                                        Laboratory site in California on February 8, 2004.
Some of the newly constructed security kiosks at Sandia Although installation of the barriers was completed
                                                        in July 2003, at the time of the incident the barrier
activation procedures had not been approved by NNSA Federal and contractor officials;
therefore, the barriers had not been energized. Further, despite this incident, the procedures
were not approved until May 2004. In addition, applicable Department/NNSA security
procedures were not followed when the vehicle was stopped. Specifically, Security Police
Officers did not restrain and search the suspect or search the suspect’s vehicle; and they did
not immediately arrest the suspect, waiting instead for local law enforcement officials to
arrive on the scene to arrest and process the suspect. (IG-0658)


Internal Control Weaknesses Over Personal Computers Continue
at Los Alamos National Laboratory
The OIG issued a final inspection report on the adequacy of internal controls over the
extensive inventory of laptop and desktop computers at LANL. An interim report issued in


                                                     10
OFFICE OF INSPECTOR GENERAL                                      U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




2003 documented internal control weaknesses relating to LANL’s classified and unclassified
laptop computers, including accountability and accreditation issues. The final report
identified continuing internal control weaknesses that undermine confidence in LANL’s ability
to assure that (1) computers are appropriately controlled and safeguarded from loss or theft
and (2) computers used to process and store classified information are controlled in accordance
with existing property management and security requirements. (IG-0656)


Unauthorized Handguns Brought Onto
National Nuclear Security Administration Aircraft
An OIG inspection concluded that Department and Federal Aviation Administration
policies were violated when two NNSA contractor employees brought handguns onto Federal
property and on board an NNSA aircraft without obtaining proper authorization. We also
determined that, contrary to representations made to the OIG by officials in 2002 regarding
the intended immediate development of new aircraft security policies and procedures, NNSA
had not developed and implemented an effective aircraft security program to ensure that
prohibited articles are not brought on board NNSA aircraft. (IG-0654)


Export Control and Foreign Visits Policies and Procedures
Need Improvement
The OIG conducts an annual review of the Department’s export control activities to ensure
compliance with Federal requirements. Based on this year’s review, we determined that
departmental policy for unclassified foreign visits and assignments did not specify the
responsibilities of the hosts of foreign national visitors and assignees. We also determined
there was inconsistent application of the Department’s export control guidance regarding
access by foreign nationals to sensitive technologies. (IG-0645)


Additional Actions Needed to Improve Continuity Planning and
Emergency Preparedness
                                                      An OIG audit found weaknesses in the
                                                      Department’s continuity planning and emergency
                                                      preparedness. Specifically, the five sites reviewed
                                                      (Argonne, Hanford, Los Alamos, Sandia, and the
                                                      National Energy Technology Laboratory) had not
                                                      fully identified essential functions or alternate
                                                      facilities in case of an emergency. We noted that
                                                      efforts had been initiated to improve emergency
Special response team practices forced entry at the
Hazardous Materials Management and Emergency          preparedness, but additional action is necessary.
Response Center                                       Accordingly, we recommended a number of actions


                                                         11
U . S . D E PA RT M E N T O F E N E R G Y                           OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




that should help improve the Department’s continuity of operations and emergency
preparedness programs. (IG-0657)


Internal Controls Over the Accountability of Computers at Sandia
National Laboratory Need Improvement
The OIG conducted an inspection to determine the adequacy of internal controls over the
extensive inventory of computers at the Sandia National Laboratory in New Mexico. We
identified weaknesses associated with Sandia’s ability to assure that laptop, desktop, and
related computer equipment is appropriately controlled and adequately safeguarded from
loss or theft and that classified computer use meets security standards. (IG-0660)


                                          Intelligence Oversight Activities at
                                          Selected Field Sites
                                          An OIG inspection concluded that Federal and
                                          contractor personnel at the Pacific Northwest
                                          National Laboratory, the Lawrence Livermore
                                          National Laboratory (LLNL), the Richland
                                          Operations Office, and the Livermore Site Office
                                          were generally in compliance with pertinent
Laser Guide Star Project at LLNL          Department policies and procedures for
                                          intelligence activities. However, at two of the sites,
instances were identified where intelligence and counterintelligence analysts were not
completely knowledgeable of key concepts of the intelligence Executive Order and certain
Department reporting requirements. (INS-O-04-01)




Project Management
Stabilization of Nuclear Materials at
Los Alamos National Laboratory
Although the Department made progress in stabilizing the most hazardous fissionable
materials at LANL, an OIG audit found that stabilization had not been accelerated to the
level anticipated. Current plans indicate that the materials will not be completely stabilized
until 2010, a date well beyond the original projected completion date of 2002. The
Department also missed interim milestones and project tasks, which may delay the
stabilization effort beyond 2010. By extending the schedule until 2010, the Department
will incur an estimated $78 million in additional stabilization costs. (IG-0659)


                                              12
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Enhanced Surveillance Campaign Missed Milestones
An OIG audit disclosed that NNSA experienced delays in completing certain Enhanced
Surveillance Campaign milestones and is at risk of missing some future milestones. At the
time of our review, Los Alamos and Lawrence Livermore National Laboratories and the
Pantex Plant had not completed critical work as scheduled in four of the six major technical
elements (pits, canned sub-assemblies, high explosives, and non-nuclear materials). The
delays, some for as long as 23 months, were due primarily to weaknesses in project
planning. As a result of these delays, NNSA may not have complete information needed to
make informed decisions regarding weapon refurbishment schedules and building a new pit
facility. (IG-0646)


Weaknesses Found in the Oak Ridge Radio Transition Projects
An OIG audit found that the planned radio transition projects at the Oak Ridge site would
cost more than necessary and would not provide several critical features. Specifically, the
Oak Ridge Operations Office and the Y-12 Complex were developing separate radio
transition projects that would not serve the needs of the entire site. Development of the
two separate projects would cost the Department an estimated $900,000 more than
necessary in infrastructure costs, increase maintenance costs by about $475,000 per year,
create gaps in radio coverage, and not conform to Federal radio system sharing
requirements. (IG-0653)


                                            Licensing Support Network for the
                                            Yucca Mountain Repository
                                            The Nuclear Regulatory Commission (NRC)
                                            Licensing Support Network (Network) is designed
                                            to expedite the Yucca Mountain Project license
                                            application process by providing interested parties
                                            with the ability to access relevant documents
                                            electronically. Given that the initial licensing
Yucca Mountain construction activities
                                            process is an important first step in the Yucca
                                            Mountain Project, the OIG initiated an audit to
determine if the Department’s portion of the Network would be ready for initial
certification and available for public review by June 2004.

While the Department had made significant progress in preparing licensing-related
information for public disclosure on the Network, our audit found that a number of
obstacles might prevent the Department from completing the initial certification by June
2004. In particular, a majority of the documents still needed to be screened for privileged




                                              13
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




and Privacy Act information; procedures for processing several million electronic mail
documents needed to be finalized; and an agreement to provide the documents to the NRC
for indexing needed to be completed. (OAS-M-04-04)


Management Controls Over Administration of the
Waste-Management Education and Research Consortium Program
An OIG audit determined that the Department did not always ensure that the project was
accomplishing its goals or that reimbursed costs were appropriate. Specifically, the project
awarded fewer fellowships than expected, funded less than 50 percent of the planned
research projects, and executed less than half of its approved budget. While management
indicated that the project had provided numerous benefits to the public, the Department
could not demonstrate that those benefits were commensurate with the $56 million in
public funds expended on the project. (OAS-M-04-03)




Stockpile Stewardship
Nuclear Weapons Stockpile Assessment
An OIG audit found that all three National Laboratories reviewed – Lawrence Livermore,
Los Alamos, and Sandia – complied with the basic requirements of the FY 2003 National
Defense Authorization Act when preparing their annual assessment letters. Although no
material problems were identified, we did find that the procedures used by each of the
Laboratories were somewhat inconsistent. We also observed that the program could be
enhanced if the NNSA Stockpile Assessment Coordinator had access to the reports of
independent teams assigned to review the certification assertions. (IG-0661)


Management Controls Over the Enhanced Test Readiness Program
An OIG audit noted examples of schedule slippages that could potentially impact NNSA’s
Enhanced Test Readiness Program. Specifically, NNSA had not completed a number of
scheduled tasks in three of five major technical efforts. However, because of project
management weaknesses, we could not ascertain – and management could not demonstrate –
whether or not the failure to meet these objectives would impact achievement of readiness
goals. (OAS-M-04-05)




                                             14
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Other Significant
                   Accomplishments
Administrative Safeguards
Hanford Tank Farm Work and Occupational
Medical Services Scrutinized
The Secretary of Energy requested that the OIG conduct an investigation of allegations
involving occupational health medical services and tank farm vapor exposures at the
Department’s Hanford site. The results of the investigation were presented to the
U.S. Attorney’s Office for the Eastern District of Washington, which declined criminal
prosecution. Although the investigation did not substantiate criminal wrongdoing, the
investigation did identify several administrative-related areas that Department management
needed to address. A report was issued to the Secretary of Energy outlining the results of
the investigation and identifying several worker health and safety protocols that required
improvement. (I04RL003)


Department Grant Recipient Pleads Guilty to
Defrauding Government
A joint investigation determined that a Government grant recipient submitted duplicate
research results to more than one agency for payment; billed for new research reportedly
done in-house when the work was improperly subcontracted to others; and submitted
invoices for personal purchases. The individual pleaded guilty to one count of Title 18
U.S.C. Section 1341 (Mail Fraud) and one count of Title 26 U.S.C. Section 7201
(Attempt to Evade or Defeat Tax). Sentencing is pending. (I01PT001)


Former Department Subcontractor Manager
Pleads Guilty to Conspiracy
A joint task force investigation determined that a subcontractor did not comply with
welding and nondestructive test requirements for valves manufactured under various
Government contracts. The OIG investigation determined that the subcontractor provided
substandard valves to the Government, some of which the Department used in the storage
of depleted uranium hexafluoride at sites in Tennessee, Kentucky, and Ohio. A former




                                             15
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Quality Assurance Manager employed by the subcontractor pleaded guilty to conspiracy,
Title 18 U.S.C. Section 371, and a violation of an NRC regulation, Title 42 U.S.C.
Section 2273(a). (I01OR008)


Two Subjects Indicted for Fraud, Conspiracy,
Theft of Government Property, and False Statements
An OIG joint investigation with the FBI determined that two former employees at LANL
purchased items, including television sets, automobile parts, and barbeque grills, with LANL
funds for their personal use. A Federal grand jury returned a 28-count indictment against
the two former employees. The indictment charged the subjects with fraud, conspiracy,
theft of Government property, and making false statements to investigators. (I02AL017)


Former Contractor Employee Sentenced for
Illegal Possession of Firearms
The OIG initiated a joint investigation with the FBI and the Bureau of Alcohol, Tobacco
and Firearms concerning a former Department contractor employee at the Idaho National
Engineering and Environmental Laboratory. The investigation focused on whether the
employee was in possession of stolen computer equipment and classified Department
documents. The investigation determined the former employee was not in possession of
classified documents or stolen Government property. However, the employee was illegally
in possession of firearms. Pursuant to a plea agreement, the subject pleaded guilty to a
Felony count violation of Possession of a Firearm by a Prohibited Person, Title 18 U.S.C.
Section 922(g)(4), and was sentenced to 5 years supervised probation, ordered to pay a
$100 special assessment fee and forfeit 4 seized firearms. (I02IF009)


Lawrence Livermore National Laboratory Physicist
Pleads Guilty to Two Counts of Theft
An OIG investigation determined that a physicist at LLNL submitted duplicate time and
attendance records and travel vouchers to LLNL, the Lawrence Berkeley National
Laboratory, and the University of California at San Francisco. The employee resigned as a
result of the investigation. The loss to the Government was nearly $50,000. The subject
pleaded guilty to two counts of Theft, Title 18 U.S.C. Section 641. Sentencing is pending.
(I02LL006)




                                            16
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Security Contractor Credits the National Energy Technology
Laboratory for Fraudulent Expenses
An OIG investigation determined that a former employee of a security services contractor at
the National Energy Technology Laboratory (NETL), Pittsburgh, Pennsylvania, submitted
false and fraudulent timesheets to the Department over a 3-year period. The employee
resigned during the investigation. Pursuant to a negotiated settlement, the security
contractor credited NETL $15,000. (I02PT006)


Conviction and Sentencing for Possession of Stolen Property
As previously reported, an OIG investigation determined that a former subcontractor
employee possessed stolen property from the Department’s Hanford site valued at
approximately $25,000. During this reporting period, the subject was convicted on one
count of Possessing Stolen Property in the Second Degree, in violation of the Revised Code
of Washington 9A.56.140/.160. The subject was sentenced to 30 days in jail, 240 hours of
community service, a $500 victim assessment fee, a $100 DNA collection fee, a $110 filing
fee, and a $37 sheriff ’s service fee. A restitution hearing is pending. (I02RL007)


Theft of Insulated Copper Wire From
Bonneville Power Administration Substation
An OIG investigation determined that two individuals broke into the Bonneville Power
Administration’s (BPA) Oregon City Substation and stole approximately 2,000 feet of
insulated copper, valued at $14,000. The individuals were private citizens who had no
affiliation with BPA. The first subject pleaded guilty to one count of First Degree Theft
(Oregon Revised Statute 164.055) and was sentenced to 13 months incarceration, 1 year of
probation, restitution in the amount of $2,500, and fines and assessments totaling $635.
An active arrest warrant is still pending for the second subject, who previously confessed to
his part in the theft. (I03RL021)


Subject Pleads Guilty and Was Sentenced for Theft of
Aluminum Wire from Bonneville Power Administration Substation
An OIG investigation determined that the subject, a private citizen, recycled over 500
pounds of aluminum wire that he stole from a Department BPA substation. The substation
burglary involved the theft of a large quantity of aluminum wire, a generator, and other
power line repair equipment. The subject pleaded guilty to one count of Second Degree
Theft, Revised Code of Washington 9A.56.020(1)(a). The subject was subsequently
sentenced to 4 months incarceration, followed by 12 months of supervised release. A
hearing will be held to determine the appropriate amount of restitution. The total loss to
the Government is estimated to be nearly $13,000. (I04RL006)


                                             17
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Department Grantee Sentenced for Submitting False Claims Under
the Small Business Innovative Research Program
A joint investigation with the Defense Criminal Investigative Service and the National
Aeronautics and Space Administration OIG focused on allegations that a grantee submitted
false statements and claims to multiple Government agencies, including the Department of
Energy. The grantee pleaded guilty to two counts of filing false statements for costs
incurred on grants relating to nano powder technology. Pursuant to a plea agreement, the
grantee received three years probation and was ordered to reimburse the Government
$540,000, as well as pay a $10,000 fine and special assessment fee of $800. (I98HQ001)


                                          Internal Controls Over
                                          Methamphetamine Precursor
                                          Chemicals Could Be Improved
                                           Based upon a request from the Tennessee Ninth
                                           Judicial Drug Task Force seeking support of its
                                           efforts relating to illegal methamphetamine
                                           production in Tennessee, the OIG initiated an
                                           inspection at two of the Department’s major Oak
Oak Ridge site                             Ridge facilities, the NNSA Y-12 National Security
                                           Complex and the Oak Ridge National Laboratory,
to determine whether there were adequate internal controls over precursor chemicals that, if
stolen, could be used for the illegal production of methamphetamine. We did not find any
indicators of theft during our inspection, and we determined that the sites were adhering to
Department requirements for controlling such chemicals. However, given the existence of
precursor chemicals at these sites and the heightened concern that these chemicals could be
targeted for theft, we believe that supplementary steps could be taken to reduce the
possibility of site chemicals being diverted. (IG-0650)




External Peer Review
Under Government Auditing Standards, Federal audit organizations must have a periodic
external quality control review. In FY 2004, the Department of the Treasury, Office of
Inspector General, completed a peer review and issued an unqualified (clean) opinion on our
audit function. The reviewers specifically noted that the operating control system in place for
audits completed during the 2-year period under review (FYs 2002-2003) provided reasonable
assurance that our Office of Audit Services complied with the principles established by the U.S.
Government Accountability Office and the President’s Council on Integrity and Efficiency.



                                              18
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Congressional Responses
During this reporting period, the OIG received 20 requests for information from Congress,
provided information in 22 instances to Congress, briefed Committee staff on 10 occasions,
and testified at a hearing.




Results
Highlights of Positive Results Based on
Office of Inspector General Work
During the reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:
    ■   The Secretary directed NNSA to consolidate and accelerate the Department's nuclear
        materials removal efforts and rapidly identify and address any gaps in current security
        coverage and recovery or removal efforts. Under this new initiative, which will include
        the establishment of a new office under the Deputy Administrator for Defense
        Nuclear Nonproliferation, the Department will develop a threat-based, prioritized
        approach to systematically address facilities that possess high-risk fissile and other
        nuclear materials;
    ■   Lawrence Berkeley National Laboratory took action to collect undercharges for
        proprietary use of its Advanced Light Source beam lines that had not already been self-
        identified, created detailed procedures for billing proprietary beam time, and
        transferred administrative responsibility for managing proprietary research funding
        accounts to another organization;
    ■   The contracting officer recovered $1,019,521 in unallowable central office expenses at
        the Thomas Jefferson National Accelerator Facility and the Oak Ridge Operations
        Office agreed to improve oversight of future contractor expense claims. This recovery
        is in addition to the $1,175,000 million civil settlement agreement between the
        Department of Justice (DOJ) and the contractor for unallowable and unsupported
        expenses addressed in the audit;
    ■   The Department removed a disallowed cost from the 2002 claim payment for
        remediation of the West Chicago thorium processing facility and strengthened its
        claim reimbursement review procedures;
    ■   The Department's Integrated Management Navigation System Executive Steering
        Committee decided to delay implementation of the new Standard Accounting and
        Reporting System;



                                               19
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




   ■   Management took actions to improve its Basic Protective Force Training Program,
       including:
           ●   program reviews of the core curriculum as it pertains to individual sites;
           ●   program reviews of the training curriculum deviation process;
           ●   comprehensive reviews of the basic security police officer training site programs;
               and,
           ●   inclusion of protective force training in the Office of Independent Oversight and
               Performance Assurance safeguard and security inspections.
   ■   Management issued new guidance for unclassified foreign visits and assignments that
       clearly defines the roles of hosts of visitors/assignees, assigns responsible field and
       headquarters entities, and ensures proper oversight of hosts and their assignees/visitors;
   ■   Savannah River Operations Office management agreed to conduct export control
       reviews on financial assistance agreements with educational institutions; and,
   ■   Management advised that a negative adjustment of approximately $200,000 was made
       to the award fee for the site security contractor at an Oak Ridge, Tennessee, facility as
       a result of protective force performance test improprieties.




Qui Tams
Since 1996, the OIG has been instrumental in working with DOJ in qui tam cases.
The OIG is currently working with the DOJ on 22 qui tam lawsuits involving alleged fraud
against the Government in the amount of nearly $213 million.




Management Referral System
The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 115 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 58 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:



                                                 20
OFFICE OF INSPECTOR GENERAL                                 U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




    ■   The OIG referred to management allegations that contractors on a major project were
        engaging in procurement irregularities, leading to large-scale waste of funds. The
        cognizant program office reviewed over 30 issues arising from the allegations.
        Although the inquiry found no intentional wrongdoing, it did find a lack of clear and
        consistent policies among the contractors in the following areas: administrative
        procedures; employee training; hiring practices; reporting of improper or illegal
        activities; allowable travel costs; the use of “make or buy” analyses; communication
        with centralized procurement regarding subcontract awards; and, documenting design
        change details. The program office recommended corrective actions to the contractors
        and is monitoring their progress in implementing them.
    ■   In response to a complaint alleging procurement violations, management determined
        that staff was using traditional methods to process procurement transactions below
        $2,500 rather than using the DOE/C-Web system. The DOE/C-Web system is an
        automated, web-based simplified purchasing system that is intended to be used to
        process small dollar value acquisitions from point of requisition through award.
        Management implemented corrective actions, including refresher training, to ensure
        that the DOE/C-Web system is properly utilized for future transactions.




Intelligence Activities
The OIG issued three quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Oversight Board concerning intelligence activities
the Inspectors General have reason to believe may be unlawful or contrary to Executive
Order or Presidential directive. No intelligence activities were identified that were contrary
to Executive Order or Presidential directive.




Legislative and Regulatory Review
The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on departmental
economy and efficiency. The OIG coordinated and reviewed 55 legislative and regulatory
items during the reporting period.




                                              21
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Hotline System
The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 882 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




                                           22
OFFICE OF INSPECTOR GENERAL                           U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Reports Issued

Audit Reports Issued – April 1 to September 30, 2004
Report                                                 Date of                 Questioned
Number                             Title                Issue     Savings        Costs
IG-0644             Los Alamos National                04-12-04
                    Laboratory’s Purchase
                    Card Program Corrective Actions
IG-0646             The National Nuclear Security      04-14-04
                    Administration’s Enhanced
                    Surveillance Campaign
IG-0647             System Development Activities      04-22-04
                    at Selected Management
                    Contractors
IG-0648             The Department’s Reporting         05-21-04
                    of Occupational Injuries
                    and Illnesses
IG-0649             Major Clean-Up Projects at the     05-25-04 $24,000,000
                    Idaho National Engineering
                    and Environmental Laboratory
IG-0651             Management of the                  06-18-04
                    Department’s Personnel
                    Security and Access Control
                    Information Systems
IG-0652             Management of the Federal          06-30-04
                    Energy Regulatory
                    Commission’s Information
                    Technology Program
IG-0653             Management of Oak Ridge            06-30-04   $1,375,000
                    Radio Transition Projects
IG-0655             Groundwater Remediation            07-22-04                 $8,568,900
                    Activities at Hanford




                                                  23
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                          Date of                    Questioned
Number                      Title                Issue       Savings         Costs
IG-0657       The Department’s Continuity       08-11-04
              Planning and Emergency
              Preparedness
IG-0659       The Stabilization of Nuclear      08-16-04 $78,100,000
              Materials at Los Alamos
              National Laboratory
IG-0661       National Security Laboratories’   09-14-04
              Annual Reporting of the
              Nuclear Weapons Stockpile
              Assessment
IG-0662       The Department’s Unclassified     09-24-04
              Cyber Security Program - 2004
IG-0664       Property Disposals at the         09-27-04
              Yucca Mountain Project
OAS-M-04-03   Management Controls Over          05-18-04                        $193,000
              Administration of the
              WERC Project
OAS-M-04-04   Management Controls Over          05-20-04
              the Licensing Support Network
              for the Yucca Mountain
              Repository
OAS-M-04-05   Management Controls Over          08-03-04
              the National Nuclear Security
              Administration’s Enhanced
              Test Readiness Program
OAS-M-04-06   Management Controls Over          08-19-04                    $10,000,000
              Subcontract Administration at
              the National Security
              Laboratories
OAS-M-04-07   Management Controls Over          09-22-04        $34,000
              Contractor Tuition
              Reimbursements for Courses
              Leading to Degrees at
              Non-Accredited Educational
              Institutions




                                          24
OFFICE OF INSPECTOR GENERAL                       U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                 Date of                 Questioned
Number                             Title                Issue     Savings        Costs
OAS-M-04-08         Management Controls Over           09-24-04   $1,300,000   $10,400,000
                    Title X Claims Reimbursement
                    at the West Chicago Thorium
                    Processing Facility
OAS-L-04-13         Reimbursable Work for the          04-09-04
                    Department of Homeland
                    Security
OAS-L-04-14         Selected Issues Pertaining to      04-19-04
                    Vapor Inhalation Allegations
                    at the Hanford Site
OAS-L-04-15         Disposition of Excess Facilities   04-22-04
                    at the Hanford Site
OAS-L-04-16         Modernization Activities           04-23-04
                    at the Y-12 National
                    Security Complex
OAS-L-04-17         The National Nuclear Security      07-09-04
                    Administration’s High
                    Explosives Manufacturing and
                    Weapons Assembly/Disassembly
                    Readiness Campaign
OAS-L-04-18         Revised Pit 9 Cleanup Project      08-19-04
                    at the Idaho National
                    Engineering and
                    Environmental Laboratory
OAS-L-04-19         The Department’s                   08-12-04
                    Implementation of
                    I-MANAGE STARS
OAS-L-04-20         Selected Financial Assistance      09-03-04
                    Awards in the Office of Science
OAS-L-04-21         The Federal Energy Regulatory      09-24-04
                    Commission’s Cyber
                    Security Program - 2004
OAS-L-04-22         Completion of the Terascale        09-22-04
                    Simulation Facility Project
OAS-L-04-23         National Nuclear Security          09-23-04
                    Administration’s Tritium
                    Production Plan


                                                  25
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                         Date of                    Questioned
Number                      Title               Issue       Savings         Costs
OAS-L-04-24   The National Nuclear Security    09-24-04
              Administration’s Secure
              Transportation Asset Program
OAS-V-04-04   Assessment of Changes to the     04-22-04
              Internal Control Structure and
              Their Impact on the
              Allowability of Costs Claimed
              by and Reimbursed to
              Westinghouse Savannah River
              Company Under Department
              of Energy Contract
              NO. DE-AC09-96SR18500
OAS-V-04-05   Assessment of Changes to the     05-26-04
              Internal Control Structure and
              Their Impact on the
              Allowability of Costs Claimed
              by and Reimbursed to
              Argonne National Laboratory
              Under Department of Energy
              Contract NO.
              W-31-109-ENG-38
OAS-V-04-06   Review of the Independent        06-04-04
              Auditor Reports on University
              Community College System of
              Nevada for Fiscal Years Ended
              June 30, 2001 and 2002
OAS-V-04-07   Assessment of Changes to the     07-15-04
              Internal Control Structure and
              Their Impact on the
              Allowability of Costs Claimed
              by and Reimbursed to Battelle-
              Pacific Northwest National
              Laboratory Under Department
              of Energy Contract
              NO. DE-AC06-76RL01830




                                         26
OFFICE OF INSPECTOR GENERAL                      U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                  Date of              Questioned
Number                             Title                 Issue     Savings     Costs
OAS-V-04-08         Assessment of Changes to the        07-15-04
                    Internal Control Structure and
                    Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to Bechtel
                    BWXT Idaho, LLC Under
                    Department of Energy
                    Contract NO.
                    DE-AC07-99ID13727
OAS-V-04-09         Report on Assessment of Changes     08-04-04
                    to the Internal Control Structure
                    and Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to
                    Brookhaven Science Associates
                    Under Department of Energy
                    Contract NO.
                    DE-AC02-98CH10886
OAS-V-04-10         Assessment of Changes to the        08-10-04
                    Internal Control Structure and
                    Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to
                    UT-Battelle, LLC Under
                    Department of Energy
                    Contract NO.
                    DE-AC05-00OR22725
OAS-V-04-11         Assessment of Changes to the        08-18-04
                    Internal Control Structure and
                    Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to Stanford
                    Linear Accelerator Center
                    Under Department of Energy
                    Contract NO.
                    DE-AC03-76SF00515




                                                27
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                 SEMIANNUAL REPORT TO CONGRESS




Report                                             Date of                    Questioned
Number                       Title                  Issue       Savings         Costs
OAS-V-04-12    Report on Assessment of Changes     09-14-04                      $3,860,015
               to the Internal Control Structure
               and Their Impact on the
               Allowability of Costs Claimed
               by and Reimbursed to Sandia
               Corporation Under the
               Department of Energy Contract
               NO. DE-AC04-94AL85000
OAS-V-04-13    Assessment of Changes to the        09-17-04
               Internal Control Structure and
               Their Impact on the
               Allowability of Costs Claimed
               by and Reimbursed to BWXT
               Y-12, LLC Under Department
               of Energy Contract
               NO. DE-AC05-00OR22800
OAS-V-04-14    Assessment of Changes to the        09-27-04
               Internal Control Structure and
               Their Impact on the
               Allowability of Costs Claimed
               by and Reimbursed to Bechtel
               Jacobs Company, LLC Under
               Department of Energy
               Contract NOS.
               DE-AC05-98OR22700,
               DE-AC05-03OK22980, and
               DE-AC05-03OL22980
OAS-FS-04-06   Uranium Enrichment                  08-16-04
               Decontamination and
               Decommissioning Fund’s
               Fiscal Year 2003 Financial
               Statement Audit




                                            28
OFFICE OF INSPECTOR GENERAL                          U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued –
April 1 to September 30, 2004*
Report Number                                          Title                         Date of Issue
IG-0645                       Contractor Compliance with Deemed Export Controls           04-13-04
INS-L-04-01                   Alleged Inconsistent Charging for ALS Beam Time and         06-01-04
                              Padding of the Berkeley Physical Biosciences
                              Division Budget
INS-L-04-02                   Physical Security Improvement Recommendations at            06-03-04
                              Los Alamos National Laboratory
IG-0650                       Internal Controls Over Methamphetamine Precursor            06-14-04
                              Chemicals at the Y-12 National Security Complex
                              and the Oak Ridge National Laboratory
INS-L-04-03                   Export Controls for Savannah River Operations Office        06-30-04
                              Financial Assistance Agreements with
                              Educational Institutions
IG-0654                       Unauthorized Handguns on National Nuclear                   07-06-04
                              Security Administration Aircraft
IG-0656                       Internal Controls Over Personal Computers at                08-10-04
                              Los Alamos National Laboratory
IG-0658                       Protective Force Response to a Security Incident at         08-11-04
                              Sandia National Laboratory, California
INS-L-04-04                   Disposal of Selected Department of Energy Equipment         08-27-04
IG-0660                       Internal Controls Over the Accountability of                08-30-04
                              Computers at Sandia National Laboratory,
                              New Mexico
INS-O-04-01                   Inspection of Intelligence Oversight Activities at          08-31-04
                              Selected Field Sites
IG-0663                       Control and Accountability of Emergency                     09-24-04
                              Communication Network Equipment
*Does not include non-public reports.




                                                        29
U . S . D E PA RT M E N T O F E N E R G Y                          OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information

Audit Report Statistics –
April 1 to September 30, 2004
The following table shows the total number of operational and financial audit reports, and the
total dollar value of the recommendations.

                                            Total            One Time                 Recurring              Total
                                           Number             Savings                  Savings              Savings
Those issued before the                         14       $3,776,083,034             $70,113,550           $3,846,196,584
reporting period for which
no management decision
has been made*
Those issued during the                         44          $137,830,915                          $0       $137,830,915
reporting period
Those for which a                               28       $2,637,572,379             $58,113,550           $2,695,685,929
management decision was
made during the
reporting period*
Agreed to by management                                  $2,429,493,537             $30,247,396           $2,459,740,933
Not agreed to by management                                   $77,784,572             $5,866,154            $83,650,726
Those for which a                              23                           $0                    $0                  $0
management decision
is not required
Those for which no                               7       $1,406,635,840             $34,000,000           $1,440,635,840
management decision has
been made at the end of
the reporting period*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              31
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics –
April 1 to September 30, 2004
The following table shows the total number of contract audit reports, and the total dollar value
of questioned costs and unsupported costs.

                                                      Total Questioned               Unsupported
                                                     Number   Costs                     Costs
Those issued before the reporting period for             3         $3,179,421            $84,241
which no management decision has been made
Those issued during the reporting period                 0                   $0                 $0
Those for which a management decision was                2         $3,028,067            $84,241
made during the reporting period
Value of disallowed costs                                              $16,053                  $0
Value of costs not disallowed                                      $3,012,014            $84,241
Those for which a management decision is                 0                   $0                 $0
not required
Those for which no management                            1            $151,354                  $0
decision had been made at the end of
the reporting period




Reports Lacking Management Decision
The following are reports issued before the beginning of the reporting period for which no
management decisions had been made by the end of the reporting period. The reasons
management decisions had not been made and the estimated dates (where available) for
achieving management decisions are also included. These reports are over 6 months old
without a management decision. The Department has a system in place which tracks
reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by audit agencies and agreed to by management are addressed
and effected as efficiently and expeditiously as possible.

The contracting officer has not yet made decisions on the following contract report.
The reason for not doing so is that certain legal and contractual investigations need to
be completed.




                                                32
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




ER-C-97-01: Report on Interim Audit of Costs Incurred Under Contract NO. DE-AC24-
92OR21972 from October 1, 1994 to September 30, 1995, Fernald Environmental Restoration
Management Corporation, Fernald, Ohio, December 20, 1996 (Estimated date of closure;
December 31, 2004).

Additional time was also necessary to develop management decisions for the following
reports. Further explanations for the delays follow each report.

CR-B-99-02: Management of Unneeded Material and Chemicals, September 30, 1999 - The
finalization of the management decision on this report is awaiting review and concurrence
by the necessary departmental elements. This should occur by December 31, 2004.

IG-0565: Salt Processing at the Savannah River Site, August 27, 2002 - The finalization of
the management decision on this report is pending the resolution of one outstanding legal
issue. This should occur by December 31, 2004.

IG-0619: The Security Afforded Selected Tritium Reservoir Shipments (U), September 22,
2003 - The finalization of the management decision on this report is pending the resolution
of a complex issue. This should occur by March 31, 2005.




Prior Significant Recommendations Not Implemented
As of September 2004, closure actions on recommendations in 48 OIG reports had not
been fully implemented within 12 months from the date of report issuance. This includes
actions on 45 operational, performance, and financial reports and 3 contract reports. The
OIG is committed to working with management to expeditiously address the management
decision and corrective action process, recognizing that certain initiatives will require long-
term, sustained and concerted efforts. Management updates the Department’s Audit
Tracking System on a quarterly basis, most recently as of September 2004. Information
on the status of any report recommendation can be obtained through the OIG’s Office of
Audit Services and Office of Inspections and Special Inquiries.

The Department has undertaken a series of initiatives to strengthen its process for
addressing recommendations made in OIG reports. In response to our audit report
entitled The Department’s Audit Resolution Process, IG-0639, February 2004, the
Department centralized the review and closure of management corrective actions, and
closed 218 recommendations in the last 6 months. However, additional action is necessary
to make the Department’s report closure process fully responsive and to ensure that actions
are taken to improve operations to meet the Department’s mission and goals. To this end,
on October 22, 2004, the Associate Deputy Secretary issued a memorandum which listed
open report recommendations and prioritized Departmental resolution of these matters.




                                               33
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Office of Inspections and
Special Inquiries Statistics –
April 1 to September 30, 2004
Inspections/Special Inquiries open at the start of this period                                                             67
Inspections/Special Inquiries opened during this reporting period                                                          17
Inspections/Special Inquiries closed during this reporting period                                                          21
Inspections/Special Inquiries open at the end of this reporting period                                                     63
Reports issued (includes non-public reports)                                                                               19
Report Recommendations*
     Issued this reporting period                                                                                          39
     Accepted by management this reporting period                                                                          29
     Implemented by management this reporting period                                                                       49
Complaints referred to Department management/others                                                                       115
     Referrals to Department management requesting a response for OIG evaluation                                           58
*Includes non-public report recommendations




Hotline Statistics – April 1 to September 30, 2004
Hotline calls, e-mails, letters, and other complaints                                                                   882*
Hotline calls, e-mails, letters, and other complaints predicated                                                        275
Unresolved Hotline predications from previous reporting period                                                            10
     Total Hotline predications                                                                                         285
Hotline predications transferred to the Management Referral System                                                      154
Hotline predications closed based upon preliminary OIG activity                                                         125
Hotline predications pending disposition                                                                                    6
     Total predications processed                                                                                       285
*The figure includes complaints outside the purview of the OIG. As warranted, the complainants were referred to the appropriate
Federal, state, local, or private organization for assistance.




                                                              34
OFFICE OF INSPECTOR GENERAL                                                 U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics –
April 1 to September 30, 2004
Investigations open at the start of this reporting period                                                              224
Investigations opened during this reporting period                                                                       55
Investigations closed during this reporting period                                                                       40
Investigations open at the end of this reporting period                                                                239
Qui Tam investigations opened                                                                                              2
     Total open qui tam investigations as of 9/30/04                                                                     22
Multi-agency task force investigations opened                                                                            16
     Total open multi-agency task force investigations as of 9/30/04                                                     99
Investigative reports to prosecutors and Department management                                                           19
Recommendations to management for positive change and other actions                                                      24
Administrative discipline and other management actions                                                                   14
Suspensions/Debarments                                                                                                     5
Investigations referred for prosecution                                                                                  17
     Accepted*                                                                                                           14
     Indictments                                                                                                         15
     Criminal convictions                                                                                                12
     Pretrial diversions                                                                                                   1
     Civil actions                                                                                                         3
Fines, settlements, recoveries**                                                                                  $7,846,222
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                               35
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                           SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the September 2004 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Debbie Solmonson


Name:


Daytime Telephone Number:


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




                                              36
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                               INSPECTOR GENERAL
                                  SEMIANNUAL REPORT TO CONGRESS
                                                           DOE/IG-0039




                                          U.S. Department of Energy

                                          Office of Inspector General




U.S. Department of Energy           April 1, 2004 - September 30, 2004
 Office of Inspector General
